Supreme Court of the United States
Office of the clei-k
Washington, .dc 20543-.0001
Khaled.shabani
4620 Frey st apt 421
Madison.wi.53705
V.
City of Madison, Wisconsin, et al.

The petition for a writ of certiorari is denied
(Rule 44. Rehearing)
The Federal Government with all the branches had discriminating against me
and my child on the basis of my origin and they did prevent me from getting
legal help or attorney .all the lawsuit in all the state courts and federal courts
had been dismissed base on discriminating the soled evidence is the beaten of
my child and I'm going to send the picture to the supreme court and the family
court had proving the abuse of my child she was only 3 years old when she got
beat on her right eye on front of her mom and I got beaten very badly from the
Madison police department and the Madison police department did cover all
the crimes and they did not give me all the videos .and all my lawsuit had
evidences but the police and the city order the judges to dismissed my cases.
and the prove they don't allow me to see my child unless I pay $ 50 dollars per
hour to see my child and the law said I have the right to see my daughter if I pay
child support and I do .and the police keep harassing me and intimidating me all
the time even after I file mu lawsuit in supreme court and the prove I did ask
for the name of officer he keep provoking me to attack him the Madison police
department did not give his name or call me back and I have all the reports and
the officer how beaten my child kraig kalka kept harassing me and intimidating
me all the time until present . And the police told my bank uw credit union in
Madison Wisconsin to make false transactions and to add more charges to my
account to but presser on me to drop the lawsuit. For

the foregoing
reasons, the petition for rehearing should be granted.
RECEIVED
JUN 2 3 2021
OEFICESF THE CLERK

Contact City of Madison Police Department
Linbox •
Wed, Jun 2, 9:56 AM
(11 days ago)
to me
Your contact request/feedback has been received:
Name: khaled shabani
Address:
4620 frey st apt 421
Daytime Phone: 6086693616
Email: qaroon1234qmail.com
Request Type: Compliment
Message:
the same police officer from Madison police he keep harassing's me intimidating at 501
state st on 5/29/2021 Saturday front of stop &shop store on i did contact the department
and no one got back to me the officer his Caucasian white tall short blond hair and he
have tattoo on his arm there was to many harassment from him i like to fil compliant
about him with the department
Thank you for taking the time to contact the City of Madison Police Department. This is
an automated reply, please do not reply to this email.

noreplyAcitvofmadison.com
to Garoon1234gmail.com
Your contact request/feedback has been received:
Name: Khaled Shabani

Mon, May 10,
5:10 PM

Address:
4620 Frey st apt 421
Daytime Phone: 6086693616
Email: Garoon1234Aqmail.com
Request Type: Compliment
Message:
Sunday morning at the community center on the west side of Madison two undercover
cops from the Madison Police Department Kept talking loud intentionally so they can
wake me up at night There is an Albanian guy also at the mosque I think he was hired
by the medicine will use department for his birthday and he's an undercover cop I will
file a lawsuit against the new chief.

noreplycityofrnadison.com

Sat, Apr 24,
3:53 PM

to Garoon1234
Your contact request/feedback has been received:
Name: Khaled Shabani
Address:
501 state st Madison, WI 53703
Daytime Phone: 6086693616
Email: Garoon1234gmail.com
Request Type: Compliment
Message:
Four undercover guys from the Madison Police Department they were standing front to
501 State Street and they were drinking alcohol and one of them he was intimidate me
he spit very close to me this is a set up from the Madison Police Department they are
trying to retaliate from me and harassing me and intimidating me.
noreply(@,cityofmadison.com

Thu, Apr 22,
1:21 AM

to GAROON1234
Your contact request/feedback has been received:
Name: Khaled Shabani
Address:
4620 Frey St., Apt. 421, Madison, WI 53705
Daytime Phone: 6086693616
Email: GAROON1234gmail.com
Request Type: Compliment
Message:
An undercover cop For the Madison Police Department had intimidating me to three

time at 501 State St. at stop and shop and even outside he approach me several time
and he got close to me suffer all the time the same man he have a harassed me in the
past I am reporting that because this is a retaliation from the Madison Police
Department.
norepIvAcitvofmadison.com

Sat, Apr 17,
4:35 PM

to Garoon1234
Your contact request/feedback has been received:
Name: Khaled Shabani
Address:
501 state st Madison Wisconsin 53703
Daytime Phone: 6086693616
Email: Garoon1234agmail.com
Request Type: Compliment
Message:
Madison Police Department they Keep sand
Undercover cops intimidated me To make me drop the lawsuit in the supreme court and
I am not going to I will report everything.

noreplyAcityofmadison.corn

Fri, Apr 9,
6:19 PM

to me
Your contact request/feedback has been received:
Name: khaled shabani
Address:
4620 Frey St apt 421
Daytime Phone: 6086693616
Email: qaroon1234Agmail.com
Request Type: Compliment
Message:
some one from Madison police department have entered my apartment and stool $ 100
dollar this is retaliation from the Madison police department.

noreply@cityofmadison.com
to Garoon1234@qmail.com

Sun, Mar 28,
3:22 PM

Your contact request/feedback has been received:
Name: Khaled Shabani
Address:
4620 frey Street apartment 421 Madison, WI 53705
Daytime Phone: 6086693616
Email: Garoon1234gmail.com
Request Type: Compliment
Message:
Saturday 27 2021 around 8o'clock two police officers came around me on 501 State St.
there was some harassment and intimidation from the police officers and a tub in before
I just want to report everything the timing with me this is retaliation from the Madison
Police Department because I did file a lawsuit in the supreme court against the city of
Madison on the Madison Police Department.

noreply0.cityofmad ison.com

Wed, Mar 24,
12:38 AM

to me
Your contact request/feedback has been received:
Name: khaled shabani
Address:
4620 Frey st apt 421
Daytime Phone: 6086693616
Email: qaroon1234Aqmail.com
Request Type: Compliment
Message:
an undercover cop from the Madison police department intimidating me before my
prayer at the musqe in the west side about 7:15 pm today this is place to pray his white
black hair thin i will file a lawsuit against the chif of Madison police department if the
harassments from the officer's continue.

noreply(&,citvofmadison.com
to me
Your contact request/feedback has been received:
Name: khaled shabani
Address:

Sat, Mar 13,
11:25 AM

4620 frey apt 421
Daytime Phone: 6086693616
Email: garoon1234Aomail.com
Request Type: Compliment
Message:
the same men how attacked me he show up at stop & shop supermarket 501 Friday
night and there is camera's to prove that and he show up the same place on Thursday
my complain to the chef of Madison to let him know what his officer's is doing i keep
getting harassments from the officer's from this department I'm going to buy a gun to
protect myself from any further attack i have a knife on me all the time by law i have
disability I'm going to send email to the white house and the government of the united
states i have more court paper i have to file and I'm not going to drop my lawsuit in
court.

norepWcitvofmadison.com

Tue, Feb 2,
10:52 PM

to me
Your contact request/feedback has been received:
Name: khaled shabani
Address:
4620 frey apt 421
Daytime Phone: 6086693616
Email: garoon1234a,omail.com
Request Type: Compliment
Message:
there was 2 undercover cops today African American in downtown 501 state st madison
wisconsin keep intermediating and harassing's me walk around me to make me drop
the lawsuit in supreme court and I'm not going to do that the madison police department
provoke my friend against me and they are threating me all the time and there is
another somali mens at my musqe were i pray they keep harassing me all the time the
madison police department they want to get me to attack one of the undercover cops
and i did aske 2 weeks ago about an officer he came at me to many time to make me to
attack him and did contact the internal affair and he did not give me the name of the
officer he is Caucasian white male blond short hair his tall.
Thu, Dec 17,
noreplvcityofmadison.com
2020, 2:08 PM
to Garoon1234
Your contact request/feedback has been received:
Name: Khaled Shabani
Address:
4620 Frey st apt 421. Madison.wi53705
Daytime Phone: 6086693616

Email: Garoon1234(gmail.com
Request Type: Compliment
Message:
On Wednesday the 16 there's an officer he came around Gilman Street and this officer
he trying to intimidate me To attack him he's doing his best so I can attack him he's the
same officer who tried to provoke me to attack Officer Brown Kalka from Madison police
department on State Street at 501 He's Caucasian white tall spiky hair blonde short hair
he have a tattoo on one of his hand I would like to get his name please I spoke with the
internal affairs today and he told me to submit a complaint I have to submit three
complaints so far..

